      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




May 4, 2010

TO:            Marilyn Tavenner
               Acting Administrator and Chief Operating Officer
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Nationwide Review of Medicare Payments for Interrupted Stays at Inpatient
               Psychiatric Facilities for Calendar Years 2006 and 2007 (A-01-09-00508)


The attached final report provides the results of our review of Medicare payments for interrupted
stays at inpatient psychiatric facilities for calendar years 2006 and 2007.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov.
Please refer to report number A-01-09-00508 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




    NATIONWIDE REVIEW OF
    MEDICARE PAYMENTS FOR
INTERRUPTED STAYS AT INPATIENT
  PSYCHIATRIC FACILITIES FOR
 CALENDAR YEARS 2006 AND 2007




                       Daniel R. Levinson
                        Inspector General

                           May 2010
                         A-01-09-00508
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) developed and implemented a
prospective payment system for inpatient psychiatric facilities (IPF) effective for cost-reporting
periods beginning on or after January 1, 2005. Under the IPF prospective payment system, CMS
pays a variable per diem rate, which includes higher payments at the beginning of a stay to cover
the higher costs of providing admission-related services, such as psychiatric evaluations, and
which declines as treatment progresses. Medicare Part A fiscal intermediaries, under contract
with CMS, use the Fiscal Intermediary Shared System (FISS) and the Common Working File to
process and pay claims submitted by IPFs.

To discourage inappropriate discharges and readmissions to IPFs, CMS has established a 3-day
policy for interrupted stays. An interrupted stay occurs when a beneficiary is discharged from an
IPF and admitted to the same or a different IPF within 3 consecutive days. In such a case, the
“readmission” is considered a continuation of the initial stay. In section 190.7.1, chapter 3, of
the Medicare Claims Processing Manual, Pub. No. 100-04, CMS provides an exception to the
3-day policy when the beneficiary is admitted to a different IPF within 3 days and the second IPF
is unaware of the beneficiary’s immediately preceding stay in the first IPF.

OBJECTIVE

The objective of our review was to determine whether fiscal intermediaries properly paid IPFs
nationwide for claims on behalf of beneficiaries who had been discharged from another IPF
within the prior 3 days.

SUMMARY OF FINDINGS

For 25 of the 100 claims in our sample, fiscal intermediaries properly paid IPFs for claims on
behalf of beneficiaries who had been discharged from another IPF within the prior 3 days. For
these claims, the admitting IPFs told us that they were not aware of the prior IPF stay. Further,
in these cases, the first IPF coded the claims as “beneficiary discharged to home,” and our review
of paid claim history did not identify an intervening stay at an institutional provider (e.g., a
skilled nursing facility) that would have put the second IPF on notice of a preceding stay.

For the 75 remaining sampled claims, fiscal intermediaries incorrectly paid IPFs $19,268 for the
second parts of interrupted stays as new stays. Based on these sample results, we estimated that
fiscal intermediaries made $3.9 million in improper Medicare payments to IPFs nationwide in
calendar years 2006 and 2007 for claims on behalf of beneficiaries who had been discharged
from another IPF within the prior 3 days. These overpayments occurred because Medicare
payment controls were not adequate to prevent or detect the overpayments. In addition, CMS’s
billing instructions did not explain how to bill for the second part of an interrupted stay when an
IPF was aware of the beneficiary’s preceding stay at another IPF.




                                                 i
RECOMMENDATIONS

We recommend that CMS:

      instruct its fiscal intermediaries to recover $19,268 for the 75 sampled claims with
       payment errors;

      review our information on the 20,605 unsampled claims for IPF interrupted stays, which
       had potential overpayments estimated at $3.8 million, and work with its fiscal
       intermediaries to recover any overpayments;

      establish edits in its Common Working File to prevent and detect overpayments to IPFs
       that admitted beneficiaries from another IPF and did not bill the claim as part of an
       interrupted stay;

      instruct its fiscal intermediaries to initiate the necessary modifications to the FISS to
       process and pay IPF interrupted stays correctly;

      consider conducting periodic postpayment reviews for claims submitted after our review
       to identify claims incorrectly paid as new stays rather than as the second part of
       interrupted stays; and

      revise its billing instructions to address appropriate billing for the second part of
       interrupted stays involving two separate IPFs when the second IPF is aware of the
       preceding stay.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations. CMS’s comments
are included in their entirety as Appendix C.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION ...............................................................................................................1

          BACKGROUND .......................................................................................................1
              Prospective Payment System for Inpatient Psychiatric Facilities..................1
              Interrupted Stay Policy ..................................................................................1
              Prior Office of Inspector General Review .....................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope..............................................................................................................2
               Methodology ..................................................................................................3

FINDINGS AND RECOMMENDATIONS ......................................................................4

          PROGRAM REQUIREMENTS................................................................................4

          SECOND PART OF INTERRUPTED STAYS INCORRECTLY PAID
           AS NEW STAYS....................................................................................................5

          CAUSES OF OVERPAYMENTS.............................................................................5
               Inadequate Medicare Payment Controls ........................................................5
               Inadequate Billing Instructions ......................................................................5

          RECOMMENDATIONS...........................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..............6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Prospective Payment System for Inpatient Psychiatric Facilities

As mandated by the Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999,
P.L. No. 106-113, together with the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, P.L. No. 108-173 (MMA), CMS implemented a prospective
payment system for inpatient psychiatric facilities (IPF).1 The prospective payment system was
effective for cost-reporting periods beginning on or after January 1, 2005. A prospective
payment represents reimbursement in full for the inpatient operating and capital-related costs of
furnishing Medicare-covered services in an IPF.

During our audit period (calendar years (CY) 2006 and 2007), CMS contracted with Medicare
Part A fiscal intermediaries to process and pay claims submitted by institutional providers,
including IPFs. 2 Fiscal intermediaries use the Fiscal Intermediary Shared System (FISS) and the
Common Working File for claim processing.

Interrupted Stay Policy

Under the IPF prospective payment system, CMS pays a variable per diem rate, which includes
higher payments at the beginning of a stay to cover the higher costs of providing admission-
related services, such as psychiatric evaluations, and which declines as treatment progresses.
CMS also makes outlier payments for IPF stays that have extraordinarily high costs.

To discourage inappropriate discharges and readmissions to IPFs, CMS has established a 3-day
policy for interrupted stays. An interrupted stay occurs when a beneficiary is discharged from an
IPF and admitted to the same or a different IPF within 3 consecutive days. For example, if a
beneficiary is discharged from an IPF on March 10 after an initial stay of 7 days and is admitted
to another IPF on March 12 (before midnight of the third consecutive day), the “readmission” is
considered a continuation of the initial stay. Therefore, day 1 of the readmission will be
considered day 8 of the combined stay for purposes of applying the variable per diem rate and
any applicable outlier payments. In explaining this policy, CMS stated that an absence from an
IPF of less than 3 days would not necessitate repeating many admission-related services, such as
psychiatric evaluations. 3

1
 The prospective payment system applies to inpatient services of psychiatric hospitals and psychiatric units of
acute-care hospitals. See the Medicare Claims Processing Manual, Pub. No. 100-04, § 190.1.
2
 The MMA, which became effective on October 1, 2005, amended certain sections of the Act to require that
Medicare administrative contractors replace fiscal intermediaries and carriers by October 2011.
3
    69 Fed. Reg. 66963 (Nov. 15, 2004).


                                                          1
Section 190.7.1, chapter 3, of CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the
Manual), instructs IPFs to bill for interrupted stays using Occurrence Span Code 74 and to
identify the dates of interruption in the stay. However, the Manual does not address how IPFs
should use Occurrence Span Code 74 in billing for interrupted stays involving two separate IPFs.
As an exception to the interrupted stay rule, the Manual states that if an IPF is unaware of an
immediately preceding stay in another IPF, the admitting IPF may bill as if the second stay were
not a continuation of the preceding stay.

Prior Office of Inspector General Review

In a prior review, 4 we found that Medicare Part A IPF claims paid by National Government
Services, Inc. (NGS), during CYs 2005 and 2006 did not always comply with Medicare
regulations for interrupted stays. We recommended, among other actions, that NGS conduct
postpayment reviews for claims submitted after our review and educate IPFs about the
importance of identifying beneficiaries who were admitted to an IPF within 3 days of being
discharged from the same or a different IPF. Although NGS concurred with our findings, it
stated that it could not implement all of our recommendations without further guidance from
CMS and modifications to the Common Working File and the FISS.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether fiscal intermediaries properly paid IPFs
nationwide for claims on behalf of beneficiaries who had been discharged from another IPF
within the prior 3 days.

Scope

Our review covered 20,705 Medicare Part A claims totaling $202.3 million that fiscal
intermediaries paid to 1,535 IPFs in CYs 2006 and 2007 for new stays within 3 days of a
discharge from another IPF. These 20,705 claims were paid by 12 Medicare fiscal
intermediaries.

We limited our review to claims for interrupted stays at two different IPFs because our prior
review and our review of nationwide data for CYs 2006 and 2007 identified a low risk of
Medicare overpayments when a beneficiary was readmitted to the same IPF.

Our objective did not require an understanding or assessment of the complete internal control
structures of IPFs or fiscal intermediaries. Therefore, we limited our review to obtaining an
understanding of (1) IPFs’ procedures for submitting claims for beneficiaries who were admitted
to an IPF within 3 consecutive days of discharge from a different IPF and (2) fiscal
intermediaries’ policies and procedures for paying such claims.


4
 Review of Medicare Part A Claims Paid by National Government Services for Interrupted Stays at Inpatient
Psychiatric Facilities During Calendar Years 2005 and 2006 (A-01-08-00530, issued December 2008).


                                                       2
Our fieldwork consisted of contacting 86 IPFs and 12 Medicare fiscal intermediaries from
February through July 2009.

Methodology

To accomplish our objective, we:

      reviewed applicable Federal laws, regulations, and guidance;

      extracted paid claim data from CMS’s National Claims History file for CYs 2006 and
       2007;

      developed a computer application to identify IPF stays nationwide that were billed and
       paid as new stays for beneficiaries who were discharged from one IPF and readmitted to
       a different IPF within 3 consecutive calendar days;

      excluded from our sampling frame 1,234 claims that were paid in CY 2006 and included
       in our previous review;

      selected a stratified random sample of 100 claims from the sampling frame of 20,705
       claims for potential interrupted stays (Appendix A);

      reviewed the Common Working File records for the 100 sampled claims to validate the
       results of our computer match and to verify that the selected claims had not been
       canceled;

      used CMS’s PRICER program and fiscal intermediaries’ provider-specific information to
       combine each incorrectly paid interrupted stay into a continuous stay and reprice the
       resulting stay;

      estimated the total value of overpayments based on our sample results (Appendix B);

      contacted representatives from the 86 IPFs that submitted the 100 claims to confirm the
       overpayments and to determine the underlying causes of noncompliance with Medicare
       regulations;

      contacted CMS and 12 fiscal intermediaries associated with the IPF claims to obtain an
       understanding of edits in the Common Working File and the FISS to prevent and detect
       Medicare Part A overpayments to IPFs; and

      discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                                3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 25 of the 100 claims in our sample, fiscal intermediaries properly paid IPFs for claims on
behalf of beneficiaries who had been discharged from another IPF within the prior 3 days. For
these claims, the admitting IPFs told us that they were not aware of the prior IPF stay. Further,
in these cases, the first IPF coded the claims as “beneficiary discharged to home,” and our review
of paid claim history did not identify an intervening stay at an institutional provider (e.g., a
skilled nursing facility) that would have put the second IPF on notice of a preceding stay.

For the 75 remaining sampled claims, fiscal intermediaries incorrectly paid IPFs $19,268 for the
second parts of interrupted stays as new stays. Based on these sample results, we estimated that
fiscal intermediaries made $3.9 million in improper Medicare payments to IPFs nationwide in
CYs 2006 and 2007 for claims on behalf of beneficiaries who had been discharged from another
IPF within the prior 3 days. These overpayments occurred because Medicare payment controls
were not adequate to prevent or detect the overpayments. In addition, CMS’s billing instructions
did not explain how to bill for the second part of an interrupted stay when an IPF was aware of
the beneficiary’s preceding stay at another IPF.

PROGRAM REQUIREMENTS

Federal regulations (42 CFR § 412.424(d)(3)(iii)) require an adjustment in an IPF’s per diem
payment for an interrupted stay in which a beneficiary is discharged from an IPF and is admitted
to the same or another IPF within 3 consecutive calendar days. The second stay is considered a
continuation of the first stay for the purposes of determining (1) what the appropriate variable
per diem adjustment is and (2) whether the total cost of the stay meets the criteria for outlier
payments.

In the IPF prospective payment system final rule (69 Fed. Reg. 66963 (Nov. 15, 2004)), CMS
illustrated the application of the interrupted stay policy using an example of a beneficiary who
was discharged from a psychiatric unit of a hospital to receive acute care and was then
transferred to a freestanding psychiatric hospital at the completion of the hospital stay. CMS
stated that if the beneficiary were admitted to the psychiatric hospital within 3 days of the initial
psychiatric unit stay, Medicare “would not pay the psychiatric hospital the variable per diem
adjustments for the initial days of original psychiatric stay otherwise applicable to the stay.”
CMS would not pay the adjusted rate because “the transferring hospital would send the
psychiatric hospital the patient’s medical record that will include information regarding the prior
psychiatric stay in accordance with the hospital condition of participation for discharge planning
(42 CFR § 482.43).” The purpose of this policy, CMS explained, was to prevent “the ‘shuffling’
of patients from hospital to hospital.”




                                                  4
SECOND PART OF INTERRUPTED STAYS
INCORRECTLY PAID AS NEW STAYS

For 75 of the 100 claims that we sampled, fiscal intermediaries incorrectly paid IPFs for the
second stays as new stays rather than as part of interrupted stays. These IPFs received full
payment for the second parts of the interrupted stays instead of the adjusted payment that IPF
regulations require. The resulting overpayments totaled $19,268. In each of these 75 cases, the
second IPF was aware of the beneficiary’s preceding stay in the first IPF because (1) the coding
on the claim showed that the beneficiary was discharged from the first IPF directly to the second
IPF, (2) the beneficiary’s claim history showed that the beneficiary was discharged directly from
an intervening stay at an institutional provider (e.g., a skilled nursing facility) to the second IPF,
or (3) IPF officials told us that they had identified the prior IPF stay.

We estimated, based on our sample results, that fiscal intermediaries made $3.9 million in
improper Medicare payments to IPFs nationwide for claims on behalf of beneficiaries who had
been discharged from another IPF within the prior 3 days.

CAUSES OF OVERPAYMENTS

Inadequate Medicare Payment Controls

Medicare payment controls were not adequate to prevent or detect overpayments to IPFs for the
second part of interrupted stays. Specifically, prepayment edits in the Common Working File
could not identify whether a beneficiary had been discharged from one IPF and readmitted to
another IPF within 3 days. Furthermore, Occurrence Span Code 74 identified the dates of
interruption in the stay but not the number of days in the first part of the stay. As a result, the
FISS could not determine what number to assign to the first day of the second part of the
interrupted stay and was therefore unable to apply the reduced variable per diem payment. 5
Finally, fiscal intermediaries did not conduct periodic postpayment reviews to ensure that IPFs
had not received overpayments for stays that were incorrectly paid as new stays rather than as the
second half of interrupted stays.

Inadequate Billing Instructions

CMS did not provide adequate billing instructions to admitting IPFs for claims made on behalf
of beneficiaries who were discharged from a different IPF within the prior 3 days. Although the
Manual instructs IPFs to bill for interrupted stays using Occurrence Span Code 74 and to define
the timeframe of the interruption, it does not specify how to use the code in billing for the second
part of interrupted stays involving two separate IPFs. Proper use of Occurrence Span Code 74
requires knowledge of certain details of the first part of an interrupted stay that are not generally
available to the second IPF.




5
 When beneficiaries are discharged from and readmitted to the same IPF, this problem does not arise because the
FISS can extract all necessary information regarding the first stay from the Common Working File.


                                                        5
RECOMMENDATIONS

We recommend that CMS:

      instruct its fiscal intermediaries to recover $19,268 for the 75 sampled claims with
       payment errors;

      review our information on the 20,605 unsampled claims for IPF interrupted stays, which
       had potential overpayments estimated at $3.8 million, and work with its fiscal
       intermediaries to recover any overpayments;

      establish edits in its Common Working File to prevent and detect overpayments to IPFs
       that admitted beneficiaries from another IPF and did not bill the claim as part of an
       interrupted stay;

      instruct its fiscal intermediaries to initiate the necessary modifications to the FISS to
       process and pay IPF interrupted stays correctly;

      consider conducting periodic postpayment reviews for claims submitted after our review
       to identify claims incorrectly paid as new stays rather than as the second part of
       interrupted stays; and

      revise its billing instructions to address appropriate billing for the second part of
       interrupted stays involving two separate IPFs when the second IPF is aware of the
       preceding stay.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations. CMS stated that it
would recover the overpayments consistent with its policies and procedures and requested that
we furnish the data necessary for it to review claims and recover the overpayments. CMS also
stated that it would work to improve its oversight and move forward in establishing the changes
necessary to implement the interrupted stay policy. CMS’s comments are included in their
entirety as Appendix C.

As requested, we provided the data necessary for CMS to initiate its review and recovery effort.




                                                 6
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part A inpatient psychiatric facility (IPF) claims for
interrupted stays that fiscal intermediaries nationwide paid during calendar years (CY) 2006 and
2007.

SAMPLING FRAME

The sampling frame was a database of 20,705 Medicare Part A claims totaling $202.3 million
that fiscal intermediaries paid to 1,535 IPFs in CYs 2006 and 2007 for new stays within 3 days
of a discharge from another IPF. We stratified the frame into two strata: stratum 1 consisted of
9,341 claims for CY 2006, and stratum 2 consisted of 11,364 claims for CY 2007.

SAMPLE UNIT

The sample unit was an IPF claim.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

The sample size was 100 IPF claims: 50 from stratum 1 and 50 from stratum 2.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units from 1 to 9,341 in stratum 1 and from 1 to 11,364
in stratum 2. After generating 50 random numbers from each stratum, we selected the
corresponding sample units.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the overpayments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                   Sample Results

                                                        Number of         Value of
        Frame       Frame     Sample       Value of     Unallowable      Unallowable
Stratum Size        Value      Size        Sample        Payments         Payments
   1     9,341    $83,174,404   50         $444,915         40             $12,818

  2      11,364   119,156,780      50       633,108          35              6,450

 Total   20,705 $202,331,184       100    $1,078,023         75            $19,268


                    Estimated Value of Unallowable Payments
              (Limits Calculated for a 90-Percent Confidence Interval)


                  Point estimate                    $3,860,690
                  Lower limit                        3,313,462
                  Upper limit                        4,407,917
APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
	
                                                       Page 1 of 3

    DEPARTMENT OF HEALTH & I--IUMAN SERVICES 	                                 Centers for Medicare & Medicaid Services


                                                                               Administrator
                                                                               Washington, DC 20201

                                       APR - 1 2010



TO: 	          Daniel R. Levinson
               Inspector General

FROM:      C\~~~~
               Acting Administrator

SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Nationwide Review of
           Medicare Payments for Interrupted Stays at Inpatient Psychiatric Facilities for
           Calendar Years 2006 and 2007" (A-01-09-00508)

Thank you for the opportunity to review and comment on the Office of Inspector General's
(OIG) draft report, "Nationwide Review of Medicare Payments for Interrupted Stays at Inpatient
Psychiatric Facilities for Calendar Years 2006 and 2007." The Centers for Medicare & Medicaid
Services (CMS) appreciates the time and resources the OIG has invested to deterinine the extent
to which fiscal intermediari'es (Fls) properly paid inpatient psychiatric facilities (lPF) nationwide
for claims on behalf of beneficiaries who had been discharged from another IPF within the prior
3 days.

The IPF prospective payment system (PPS) interrupted stay policy stipulates that if a patient is
discharged from an IPF and is admitted to the same or another IPF within 3 consecutive calendar
days following the discharge, the case is considered to be continuous. This differs slightly from
other interrupted stay policies finalized under the inpatient rehabilitation facility PPS and the
long term care hospital PPS, which consider the stay continuous if a patient leaves and returns to
the same facility. Due to the uniqueness of the IPF PPS interrupted stay policy, implementation
was highly complex as it required that Medicare split payment between two different facilities.

We recognize that we did not implement the claims processing changes necessary for the
interrupted stay policy to another IPF for the reasons stated above. However, we will work to
improve our oversight in the future and move forward in establishing the changes necessary to
implement this policy.

OIG Recommendation

Instruct its FIs to recover $19,268 for the 75 sampled claims with payment errors.
                                                                                         Page 2 of 3



Page 2 - Daniel R. Levinson

CMSResponse

The CMS concurs. CMS agrees that the $19,268 in overpayments should be recovered. CMS 

plans to recover the overpayments identified consistent with the agency's policies and 

procedures.                                                      .


The OIG will be requested to furnish for each overpayment or potential overpayment the data
necessary (Medicare contractor numbers, provider numbers, claims information including the
paid date, HIC numbers, etc.) to initiate and complete recovery action. In addition, Medicare
contractor-specific data should be written to separate CD-ROMs or separate hardcopy
worksheets in order to better facilitate the transfer of information to the appropriate contractors.

OIG Recommendation

  Review our information on the 20,605 unsampled claims for IPF interrupted stays, which had
. potential overpayments estimated at $3.8 million, and work with its FIs to recover any
  overpayments.

CMS Response

The CMS concurs. CMS will analyze a subset of the 20,605 unsampled claims to determine the
cost effectiveness of conducting review of all claims. CMS will also collect applicable
overpayments. eMS will share the results of the cost effectiveness study across fee-for-service
claims processing contractors.

OIG Recommendation

Establish edits in its Common Working File (CWF) to prevent and detect overpayments to IPFs
that admitted beneficiaries from another IPF and did not bill the claim as part of an interrupted
stay.

 CMS Response

 The CMS concurs. CMS will instruct its FIs and Medicare Administrative Contractors (MACs)
 to establish edits in the CWF to detect interrupted stays between two different facilities. This
 will prevent overpayments and underpayments.

 OIG Recommendation

 Instruct its FIs to initiate the necessary modifications to the Fiscal Intermediary Shared System
 (FISS) to process and pay IPF interrupted stays correctly.
                                                                                         Page 3 of 3



 Page 3 -:- Daniel R. Levinson

 eMS Response

. The CMS concurs. CMS will instruct its FIs and MACs to modify the FISS and IPF Pricer to
  process and pay IPF interrupted stays between two different facilities correctly.

 OIG Recommendation

 Consider conducting periodic postpayment reviews for claims submitted after our review to
 identify claims incorrectly paid as new stays rather than as the second part of interrupted stays.

 eMS Response

 The CMS concurs. The Recovery Audit Contractors (RACs) review Medicare claims on a post
 payment basis and are tasked with identifying overpayments and underpayments. While CMS
 does not mandate areas for RAC review, we will share this information with them and encourage
 them to consider these findings as they decide what claims to review.                        .

 OIG Recommendation

 Revise its billing instructions to address appropriate billing for the second part of interrupted
 stays involving two separate IPFs when the second IPF is aware of the preceding stay.

 eMS Response

 The CMSconcurs. CMS will request a new code from the National Uniform Billing Committee
 for IPFs to demonstrate on their claim the prior stay at another IPF. This code will also be
 incorporated into the FISS and CWF editing, so that payment can be properly applied. Even if
 the second IPF is unaware of the preceding stay and does not use the code, the systems will be
 designed to pay correctly.

 The CMS appreciates the OlO's efforts and insight on
                                                   ,
                                                      this report.
